  DEPARTMENT OF HOMELAND SECURITY

       Office of Inspector General



       USCIS Approval of H-1B Petitions 
 
 

          Exceeded 65,000 Cap in 
 
 

              Fiscal Year 2005 
 
 





     Office of Inspections and Special Reviews

OIG-05-49                         September 2005
                                                                         Office of Inspector General

                                                                         U.S. Department of Homeland Security
                                                                         Washington, DC 20528




                                              Preface

The Department of Homeland Security (DHS) Office of Inspector General (OIG) was established by
the Homeland Security Act of 2002 (Public Law 107-296) by amendment to the Inspector General
Act of 1978. This is one of a series of audit, inspection, and special reports prepared by our office as
part of our DHS oversight responsibility to promote economy, effectiveness, and efficiency within
the department.

This report assesses the processing of H-1B "temporary worker" nonimmigrant visa petitions by
DHS in fiscal year 2005 and analyzes the deviation between the statutory ceiling and the actual
results. It is based on interviews with employees and officials of relevant agencies and institutions,
direct observations of the petition process, and a review of applicable documents.

The recommendations herein have been developed to the best knowledge available to our office, and
have been discussed in draft with those responsible for implementation. It is our hope that this
report will result in more effective, efficient, and economical operations. We express our
appreciation to all of those who contributed to the preparation of this report.




                                              Richard L. Skinner 
 
 

                                              Inspector General 
 
 

Contents 


  Executive Summary ....................................................................................................................... 1 
 
 


  Background .................................................................................................................................... 1 
 
 


  Results of Inspection...................................................................................................................... 3 
 
 


          The traditional CIS business process guarantees imprecision ............................................. 3 
 
 

          The organization of DHS handicaps counting efforts .......................................................... 5 
 
 

          A complex adjudication process makes the cap count fluctuate .......................................... 5 
 
 

          A complex counting process makes the cap a moving target .............................................. 9 
 
 

          An unexpected influx of petitions swamped the cap counting process .............................. 15 
 
 

          Ceasing acceptance of new petitions took too long ............................................................ 17 
 
 

          Recent CIS initiatives are intended to prevent a recurrence ............................................... 19 
 
 

          Conclusion and Recommendations ..................................................................................... 20 


  Management Comments and OIG Analysis ................................................................................ 22 
 
 


Appendices
  Appendix A: Purpose, Scope, and Methodology ........................................................................ 24 
 
 

  Appendix B: Section 214(g) of the Immigration and Nationality Act ........................................ 25 
 
 

  Appendix C: Management Response to Draft Report ................................................................. 28 
 
 

  Appendix D: Major Contributors to This Report ......................................................................... 33 
 
 

  Appendix E: Report Distribution ................................................................................................. 34 
 
 


Abbreviations
  ACWIA                 American Competitiveness and Workforce Improvement Act 

  AC21                  American Competitiveness in the 21st Century 

  CIS                   U.S. Citizenship and Immigration Services 

  CLAIMS                Computer Linked Application Information Management System

  DHS                   Department of Homeland Security 

  DO                    Office of Domestic Operations, CIS 

  DOS                   Department of State 

  KCC                   Kentucky Consular Center 

  LAN                   Local Area Network             

  LCA                   Labor Condition Application 

  OIG                   Office of Inspector General 

  OIS                   Office of Immigration Statistics 

  RFE                   Request for Evidence 





                          USCIS Approval of H-1B Petitions Exceeded 65,000 Cap in Fiscal Year 2005
OIG 
 
 

Department of Homeland Security
Office of Inspector General

Executive Summary
              In March 2005, the Office of Inspector General received a letter from Senator
              Charles Grassley, Chairman of the Senate Finance Committee, and Representative
              John Hostettler, Chairman of the Subcommittee on Immigration, Border Security
              and Claims of the House Judiciary Committee. The chairmen requested that we
              investigate the actions taken by officials of U.S. Citizenship and Immigration
              Services (CIS) regarding the bureau's provision of H-1B non-immigrant status to
              more aliens in fiscal year (FY) 2005 than was statutorily authorized. In particular,
              we were asked to investigate how the over-issuance of H-1B visas occurred and
              whether it was done in deliberate violation of federal law. In addition, we were
              asked to make determinations as to what actually transpired and how to prevent
              an over-issuance from occurring in the future. In response to their request, we
              reviewed the H-1B petition approval process and the events that led to this over-
              issuance in FY 2005.

              CIS officials at all levels in Washington, DC and at the service centers were
              aware of and attempted to comply with the statutory limit on the number of
              persons granted H-1B status. However, CIS had neither the technology nor an
              operational methodology to ensure compliance with the precise statutory ceiling.
              Faced with the certainty of issuing either too few or too many approvals, it had
              been CIS' explicit practice to avoid approving too few. The CIS "business
              process," of taking all petitions submitted before an announced cut-off date,
              guarantees that an inexact number of petitions will be approved. The structure of
              DHS handicaps counting efforts; a complex adjudication process makes the count
              fluctuate; a complex counting process makes the cap a moving target; and, an
              unexpected influx of petitions in mid-September 2004 swamped the cap counting
              process.

              Several recent CIS initiatives are designed to prevent a recurrence. We cannot
              evaluate policies meaningfully that have not yet been tested. However, we
              believe that they might not be sufficient to accomplish the precision that Congress
              now requires, and offer two recommendations to improve the methods for
              processing H-1B petitions.


Background
              The H-1B program is one of several "temporary worker" nonimmigrant visa
              programs. It allows U.S. based companies to employ foreign individuals in the


               USCIS Approval of H-1B Petitions Exceeded 65,000 Cap in Fiscal Year 2005 

                                               Page 1 

                       United States for “specialty occupations” on a temporary basis. There are three
                       subcategories:

                           • 	 H-1B1 positions - for workers from Chile and Singapore - require that the
                               alien have at least a bachelor’s degree or the equivalent in a specialty
                               field;
                           • 	 H-1B2 positions - for workers who will perform exceptional services for a
                               project administered by the US Department of Defense (DOD); and,
                           • 	 H-1B3 positions - for fashion models of national or international acclaim
                               and recognition.

                       Other temporary worker visa programs are designed to accommodate trainees,
                       intra-company transferees; aliens of extraordinary ability in arts, science,
                       education, business or athletics; internationally recognized athletes and
                       entertainers; and, aliens coming temporarily to participate in an international
                       cultural exchange program. Both the entertainment industry and professional
                       sports employ many temporary workers.

                       Section 214(g)(1)(A) of the Immigration and Nationality Act sets a limit of
                       65,000 H-1B approvals in FY 2005. The same section of the law defines certain
                       types of H-1B petitions as exceptions to this "cap." Therefore, CIS must
                       determine as it adjudicates each petition whether it is a "cap case" or a "non-cap
                       case." There is no limit on the number of cap-exempt petitions that can be
                       approved. The law requires, as well, that H-1B cases be approved in the order in
                       which they were filed. Section 214(g) is complex; the complete text is attached at
                       Appendix B.

                       In FY 2005, CIS exceeded the limit and approved more petitions than the law
                       stipulated. 1 Once adjustments were made to the total number involving visa
                       denials and reconsidered exemptions, and after unused numbers set aside earlier
                       to comply with free trade agreements were factored in, the total number of
                       approved FY 2005 "cap cases" turned out to be approximately 71,740 --
                       significantly over the limit of 65,000. 2

                       CIS adjudicators examine many factors before approving an H-1B petition. Both
                       the position that is going to be filled and the worker who will fill it must meet
                       many criteria, all of which are described in the service center operations manual.
                       Petitions that are complete and clearly meet the standards can be quickly
                       approved. Other petitions require correspondence between the service center and
                       the petitioner to resolve unclear or incomplete submissions.




1
    CIS "White Paper" dated April 12, 2005.
2
    CIS-OIG e-mail June 27, 2005.
                        USCIS Approval of H-1B Petitions Exceeded 65,000 Cap in Fiscal Year 2005 

                                                        Page 2 

             H-1B petitions, when approved, are used by some beneficiaries to apply for an H
             1B visa at an embassy abroad. Other beneficiaries, already lawfully in the United
             States in some other status (such as “F-1” student) need to change status with CIS.
             Canadian beneficiaries are reviewed for admission when they arrive at the border,
             because Canadians are exempt from the visa requirement.

             The cap does not limit H-1B visas, as generally is believed, but limits persons
             granted H-1B status, which complicates the counting process.


Results of Inspection
             CIS approved approximately 72,000 H-1B cap cases for FY 2005, exceeding the
             statutory cap of 65,000. There is no indication that this was done in deliberate
             violation of federal law. A number of factors led to this outcome.

  The traditional CIS business process guarantees imprecision
             CIS cannot exactly hit any specific cap number with its current business process.
             CIS management (and formerly INS) has understood that the final number of cap
             cases approved would be higher or lower than the exact mandate. CIS makes
             many efforts to minimize this deviation, but believes that the public is best served
             by simplicity and transparency in the petition process.

             CIS cuts off further receipt of H-1B petitions when it estimates the number of
             approved petitions is approaching the mandated limit. CIS makes efforts to
             monitor its H-1B workload, to count the incoming cap cases, and to estimate the
             likely outcome of the pending work already received but not yet finally
             adjudicated. These efforts allow CIS to announce a cut-off date after which it will
             no longer accept petitions so as to end the year close to the cap. All petitions
             received before the cut-off dates are adjudicated to completion without regard to
             the cap. CIS managers told us that American employers are entitled to be
             confident that petitions that meet the legal requirements and are filed in a timely
             manner will be approved.

             We interviewed an official who was involved with the H-1B cap issue in the late
             '90s at the former INS. She indicated that a perceived failure at that time to "hit
             the cap" was brought to the attention of the commissioner, and that efforts were
             undertaken to improve management's ability to approve the maximum number of
             allowed petitions. Among other initiatives, the form petitioners complete and
             submit, the Form I-129, was redesigned to better capture information relating to
             whether a case was exempt from the cap. When INS failed to hit the cap again
             the following year, outside consultants were engaged to take another look at the
             process. Alternative petition processing systems have been discussed but
             dismissed as inferior to the current process.
              USCIS Approval of H-1B Petitions Exceeded 65,000 Cap in Fiscal Year 2005 

                                              Page 3 

                     CIS has considered and rejected a business process that would involve opening
                     and closing the application window repeatedly during the 18-month processing
                     period that can be used each fiscal year. 3 During each closure CIS could
                     adjudicate all pending cases, and evaluate how many more cap cases could be
                     processed. Also, it considered and rejected a model in which it would accept and
                     process cases until the cap is reached, and then mail back the unprocessed overage
                     along with the paid fees. Our visit to the mail room at the California service
                     center, where petitions of all kinds arrive by the truckload several times a day,
                     gave us an appreciation of how difficult such an alternative would be. Also, it
                     might expose CIS managers to significant internal control issues with respect to a
                     potentially large number of fees.

                     CIS told us it seeks a process that will avoid cutting off further applications too
                     soon before the statutory limit is reached. Businesses in the past have brought
                     legal actions against CIS when they believed CIS over-counted and, therefore,
                     failed to approve the full statutory number of cases. 4

                     CIS today continues to believe that any shortfall in petition approvals that would
                     result from an over-counting of cap cases would be a disservice to the American
                     business community. Ironically, in mid-September, 2004 -- at almost the exact
                     moment that CIS was inadvertently going over the FY 2005 cap -- a manager sent
                     an e-mail discussing with her colleagues and subordinates the possibility that
                     there had been a shortfall in FY 2004. 5 She indicated that "there are concerns that
                     perhaps some part of the 'formula' [for predicting eventual approvals] is not
                     correct in that perhaps we did not capture some group of cases that are falling out
                     of the cap usage classification." After mentioning several possible explanations
                     for the inaccuracy of the FY 2004 count, she said: "…[our superiors] want to
                     make sure that we revisit this formula so we can get closer to the target number
                     before we shut off the H-1B cases for FY05."

                     A fuller description of the adjudication process has been provided in a later
                     section. Such a description is necessary to fully explain the complexities that
                     result in cap cases reclassified as non-cap - or vice versa - during processing.
                     Approved cases can later be revoked, freeing an additional number. Denied
                     petitions can be appealed successfully to a higher level in CIS, consuming a
                     number. Beneficiaries believed to be different persons (and counted twice) can in
                     fact be one person with multiple offers from potential employers. Beneficiaries
                     abroad are sometimes denied their visa - freeing another cap number if they were
                     a cap case and if CIS is informed of the denial. For these and other reasons, the
                     number of already approved cap cases would fluctuate even if CIS temporarily

3
  Petitions can be submitted up to six months before the beginning of each fiscal year, i.e., April 1.
4
  See, for example, Law Office of Azita Mojarad, et al v. Eduardo Aguirre, Case number 1:05CV00038, U.S. District
Court for the District of Columbia.
5
   September 15, 2004 e-mail titled "H-1B Cap Counts".
                       USCIS Approval of H-1B Petitions Exceeded 65,000 Cap in Fiscal Year 2005 
 
 

                                                       Page 4 
 
 

           ceased adjudicating pending cases. With the number of petitions already
           approved and subject to the cap in constant fluctuation, it is almost impossible for
           CIS to approve any specific number of cap cases.

The organization of DHS handicaps counting efforts
           Before DHS was created, the Immigration and Naturalization Service (INS)
           Office of Immigration Statistics (OIS) played an important role in managing the
           cap count by providing timely H-1B workload numbers to INS managers. When
           DHS was formed OIS was not placed within any of the three new fragments of
           the former INS: Customs and Border Protection, Immigration and Customs
           Enforcement, or Citizenship and Immigration Services. Instead it was made a
           component of the DHS Office of Management, one of the five major directorates
           that report directly to the Secretary. This left CIS responsible to administer a
           process it could not monitor with sufficient precision on its own.

           During the first two years of DHS’ existence OIS continued to provide counting
           assistance to CIS managers. We reviewed correspondence between CIS and OIS
           and found that the offices cooperated well as they tried to keep an up-to-date
           count of H-1B activity. Nevertheless, as one interviewee described the situation
           to us, CIS had the responsibility to manage numbers but no ability to track them,
           while OIS could track the numbers but did not have responsibility to manage the
           H-1B program.

           Further complicating the relationship, and slowing down the count, was the need
           to utilize an outside contractor to process the data and generate the count
           estimates. The inadequacies of the Computer Linked Application Information
           Management System (CLAIMS) used by CIS will be discussed below, but we
           found that CIS managers required both the assistance of OIS and the paid services
           of a contractor to generate the numbers they needed to manage the cap.

           A significant improvement was made in December 2004. An expert in H-1B
           statistics was transferred from OIS to CIS. CIS expects in the future to be able to
           manage the cap count without depending upon OIS for routine cap counting
           assistance.

A complex adjudication process makes the cap count fluctuate
           H-1B petitions need to be examined, evaluated, and adjudicated. Errors,
           inconsistencies, and omissions from the file need to be resolved. Denials are
           subject to administrative appeal. Approvals are subject to later revocation. CIS
           promises an expedited decision to those who pay a surcharge. Overall, the
           business processes are stunningly unwieldy.


            USCIS Approval of H-1B Petitions Exceeded 65,000 Cap in Fiscal Year 2005 

                                            Page 5 

                     Petitioning employers file Form I-129, Petition for Nonimmigrant Worker, with
                     one of four CIS service centers at Laguna Niguel, California; St. Albans,
                     Vermont; Dallas, Texas; or Lincoln, Nebraska. Petitions for workers who seek
                     specialty occupations (the bulk of H-1B petitions) must include supporting
                     material that proves eligibility for H-1B status. This evidence includes a Labor
                     Condition Application (LCA) from the Department of Labor and a prevailing
                     wage determination received from either the state workforce agency that has
                     jurisdiction over the geographic area of intended employment or from a survey
                     conducted by an independent authoritative source. Evidence also is required to
                     prove the beneficiary has at least a U.S. baccalaureate, a comparable foreign
                     degree, or education or experience that is equivalent. Required processing fees,
                     state employment licenses, and a contract of employment also must be supplied.

                     CIS service centers date stamp each petition, deposit the submitted fees, and
                     create a paper file. A corresponding computer record with information about the
                     petition is established in the CLAIMS Local Area Network (LAN). 6 A unique
                     receipt number is generated for each application. The paper files are then sent to
                     the file control unit where they are sorted into “cap” and “non-cap” cases. This
                     sorting is performed to allow for continued processing of “non-cap” cases at the
                     service centers once the annual cap has been reached. Files are then sent to the
                     adjudicators based on local workload requirements. CIS adjudicators review the
                     files (both the paper and electronic versions) and determine whether there is
                     sufficient evidence to determine H-1B status eligibility.




6
  The CLAIMS LAN provides users, including supervisors, with basic automated support for: a) adjudicating cases, b)
processing various notices, c) producing supporting documentation (e.g., signature cards) for files supported by the
system, and d) administrative functions related to the use of the system in support of the H-1B process. The CLAIMS
LAN is a hybrid application, with extensive functionality distributed between the Service Centers and the CLAIMS
Mainframe in Dallas, Texas. The LAN-based version of CLAIMS implemented at each Service Center is tightly coupled
with a mainframe-based version of the same application. The “local” version of CLAIMS supports end users at each of
the Service Centers through four separate systems which are: a) data entry subsystem, b) adjudication subsystem, c)
processing support subsystem, and d) automatic data processing system.
                       USCIS Approval of H-1B Petitions Exceeded 65,000 Cap in Fiscal Year 2005 
 
 

                                                       Page 6 
 
 

                                           Incoming Mail at the California Service Center


                      Adjudicators will reject a petition if it is incomplete, or lacks appropriate fees or
                      required supplemental material. In such cases, CIS sends a Request for Evidence
                      (RFE) to the petitioner, asking for any additional information required to support
                      the petition. The petitioner must respond within a set period of time or the
                      petition will be considered abandoned and will be denied. If the petitioning
                      employer supplies the requested evidence, the adjudication resumes. Cap cases
                      are required by law to be approved in the order they were filed (see Appendix B -
                      214(g)(3)), so if the incomplete case is or might be a cap case, a cap number must
                      be assigned to the petition while the RFE is outstanding in case the employer does
                      provide the evidence and the petition is approvable.

                      A petition can be denied if the adjudicator decides the worker is not eligible for
                      H-1B status. A denial does not necessarily end the petitioning process. The
                      company can file an appeal within thirty days. Appeals and motions are handled
                      by the CIS Administrative Appeals Office, located in Washington DC. As in the
                      event of an RFE, if a case is on appeal a cap number must be held aside so that if
                      the appeal is successful a number will remain available. 7


7
  The Administrative Appeals Office estimated for us that appeals succeed – petitions at first denied are later approved –
approximately 15 % of the time, and that several thousand appeals are submitted each year.
                        USCIS Approval of H-1B Petitions Exceeded 65,000 Cap in Fiscal Year 2005 
 
 

                                                        Page 7 
 
 

If an adjudicator finds that a worker is eligible, the petition is approved and the
petitioning company is sent Form I-797, Notification of Approval. If the
beneficiary is in the United States, the alien is adjusted to H-1B status. If the
worker is outside of the United States, an I-797 is also sent to the Department of
State Kentucky Consular Center (KCC), which notifies the appropriate U.S.
embassy abroad. The worker (unless a Canadian citizen) must make an
appointment with the embassy and apply for an H-1B visa. Visa law is complex,
and it is not uncommon for a beneficiary approved by CIS to be found ineligible
to receive a visa by the Department of State. In that event, if the petition was
subject to the cap, the cap number can be reassigned for the benefit of another
petition.



                                                                                     2) Adjudication takes place at one
                                           USCIS National Service                       of four Service Centers, and
   1) Company sends petition to                  Centers                                  typically takes 30 days
    designated Service Center via
           mail or internet
                                                                 Petitions can be:            Incomplete petitions are
                                                                                            returned with a Request for
                                                                               Rejected       Evidence (RFE). Reply
                                                                                              required within 81 days

     Company Planning to                                                                    If the petition is denied an
       Employ Worker                                                                       appeal can be made within 30
                                                                               Denied
                                                                                                        days


                                                                                                  4) For workers abroad,
                                        3) If approved, company is                                 approval file is sent
                                                                               Approved
                                         notified with Form I-797.                                through the DOS KCC
                                                                                                 to appropriate embassy
    4) For workers in the U.S.,
    worker is adjusted to H-1B
     status without a visa and
      may begin employment
                                                                 Local US
                                    Worker                       Embassy
       Beneficiaries outside the U.S.                                                               DOS Kentucky
       make appointment with visa             5) Visa officer determines if worker is eligible     Consular Center
           officer at consulate              for H-1B visa. If approved worker uses visa to
                                                  enter the U.S. and begin employment




                             Figure 1 – The H-1B Application Process




 USCIS Approval of H-1B Petitions Exceeded 65,000 Cap in Fiscal Year 2005
                                 Page 8
           The process for adjudicating an H-1B petition can take a CIS service center up to
           sixty days, though most petitions are processed within thirty days. RFEs for
           petitioners can slow the process considerably. For an additional fee, petitioning
           companies can use an expedited service that guarantees adjudication within two
           weeks. With this expedited service, some approvals are made within hours of the
           CIS service center receiving a petition.

A complex counting process makes the cap a moving target
           In addition to the challenges already discussed, hitting the cap target is made even
           more difficult by exemptions in the law and by the procedures CIS applies to keep
           a running total of cap cases approved to date.

           Many Legal Variables Affect the Cap

           In 1990, Congress amended the Immigration and Nationality Act to impose a cap
           on the numerical limit of aliens who may be granted H-1B status at 65,000 per
           fiscal year. In 1998, Congress passed the American Competitiveness and
           Workforce Improvement Act (ACWIA), which increased the cap to 115,000 for
           FY 1999 and FY 2000, and to 107,500 for FY 2001. In 2000, Congress passed
           the American Competitiveness in the 21st Century Act (AC21), which increased
           the cap to 195,000 for FYs 2001, 2002 and 2003. In FY 2004, the cap returned to
           65,000 per year.

           Fiscal years begin in October of the previous calendar year, that is, October 1,
           2004, through September 31, 2005, is FY 2005. But because petitions may be
           filed six months before a potential worker’s intended start date, a company may
           file a FY 2005 petition as early as April 1, 2004, for a worker who will begin
           work on October 1, 2004. The latest a company can file is dependent on whether
           the congressionally-mandated cap has been reached. If the cap has not been
           reached for a given fiscal year by the time petitions are accepted for the next
           fiscal year (April 1), a worker can be applied to either fiscal year.

           CIS must make several other adjustments to the cap count during the petition
           process. For example, multiple petitions may have been submitted for one
           beneficiary, such as a college senior who is offered employment by more than one
           company. Each petition will appear to be a separate cap case. If CIS fails to
           adjust its count, it will incorrectly believe it is using more cap numbers than in
           fact it is. CLAIMS does not automatically detect multiple petitions for one
           beneficiary, so the data must be reviewed periodically through a special process.

           Another exemption from the cap is for any beneficiary who has been counted
           against the cap within the last six years (see Appendix B, 214(g)(7)). Eligibility
           for this exemption is based upon the beneficiary's previous immigration history,
           which often is not known to the prospective employer completing the petition
            USCIS Approval of H-1B Petitions Exceeded 65,000 Cap in Fiscal Year 2005 

                                            Page 9 

                      form. Therefore, in cases where this exemption applies, it is often not apparent to
                      the adjudicator from the information in the petition. Neither, officials told us,
                      would the CLAIMS LAN indicate to an adjudicator that the same-named
                      beneficiary was also the subject of an earlier petition processed at any of the other
                      three service centers. Determining whether or not 214(g)(7) applies can be
                      particularly difficult for CIS.

                      In addition, the several other statutory exemptions (see Appendix B, 214(g)(5))
                      from the cap need to be excluded from the count. These benefit employers who
                      are institutions of higher learning and any affiliated nonprofit entities, and other
                      nonprofit or government research organizations.

                      The Chile and Singapore Free Trade Agreements of 2003 reserve 6,800 of the
                      65,000 H-1B slots for workers from Chile and Singapore (1,400 for Chile and
                      5,400 for Singapore.) Unused Chile or Singapore numbers – the demand for
                      which so far has been small - are restored to the larger pool of 58,200. This is
                      difficult to implement, however, because a number is not definitively unused until
                      the last day of the fiscal year. The law therefore provides that the unused Free
                      Trade Agreement H-1B numbers have a special 45-day window in the beginning
                      of the following fiscal year to be used against the cap of the just-completed fiscal
                      year. All of the other 58,200 cap numbers belonging to a fiscal year, however,
                      can actually be used up before the fiscal year even begins – during the six-month
                      lead-in period described earlier.

                      Previously approved cap cases that subsequently are revoked need to be
                      subtracted from the total, as do visa refusals abroad, so that the unused number
                      can be given to another petition. To give an example, in FY 2004 slightly over
                      500 H-1B visa applications abroad were denied.

                      When to cut off further receipt of petitions?

                      The CIS Office of the Associate Director, Domestic Operations (DO) is
                      responsible for enforcement of the annual cap. Cap counting activity is managed
                      by Service Center Operations (SCOPS), a DO component. Within SCOPS the
                      deputy director is responsible for managing the H-1B cap. This responsibility
                      includes "regular monitoring of the volumes of approved and pending petitions
                      subject to the cap and the manner in which USCIS determines the number of
                      pending petitions that will likely result in additional approvals subject to the
                      cap." 8

                      With the assistance of OIS, a special process has been developed to monitor H-1B
                      volume. A contractor extracts data from CLAIMS, makes some historically based
                      adjustments to allow for probability of various outcomes, and analyzes the results.
8
  Source: declaration submitted by CIS in the matter of Law Office of Azita Mojarad, et al v. Eduardo Aguirre ( see
Footnote 5).
                       USCIS Approval of H-1B Petitions Exceeded 65,000 Cap in Fiscal Year 2005 
 
 

                                                       Page 10 
 
 

                      Each repetition of this process is called a sweep, and requires about two days.
                      Each sweep requires retrieval of data from all four service centers. In the early
                      part of the year a sweep might be performed once every two weeks, but, as the
                      cap is approached, the frequency increases. DO uses sweep data, along with
                      previous years’ trends, to determine a termination date for accepting new
                      petitions.

                      While the exact formulas are complicated, the process basically works as follows:
                      a known number of cap cases is approved. To this number is added an estimated
                      fraction of the pending work at the service centers – the cases received but not yet
                      adjudicated. An addition is made for an estimated percentage of the cases denied
                      but still on appeal. A subtraction is made for an estimated percentage of cases
                      that will be denied visas. Another adjustment is made for claims to be
                      cap-exempt that later will be determined to be unfounded. Numerous other
                      predictions are factored in, and the result is an estimate of the number of cap cases
                      likely to be approved from all the petitions received – as of two days ago. With
                      this number, and in light of the rate at which new petitions arrive each day,
                      management can estimate when it will suspend processing because of the cap.
                      Once this date is determined, a public announcement to that effect is issued.

                      One CIS official recently explained the challenge this way in an e-mail memo 9:

                           “Petitions Pending Adjudication -- Unadjudicated or pending petitions present
                           another counting challenge. At any one moment thousands, usually tens of
                           thousands of cap-eligible petitions may be awaiting adjudication. The
                           management of the cap requires predicting the adjudication outcome of these
                           petitions as well as any additional information on exemptions. Some of these
                           pending petitions will be denied and/or become exempt from the cap.
                           However, a decision on when sufficient petitions have been received to satisfy
                           the cap will be made weeks before the cap is actually reached. . . . How close
                           in theory the final cap count is to the statutory limit depends to a large extent
                           on the accuracy of the statistical model used to predict the outcome of the
                           adjudication process of these pending petitions. The statistical model employs
                           assumptions based on the experience of petitions already adjudicated in the
                           same fiscal year. The past is not necessarily an accurate predictor of the
                           future, certainly not if an exact count is required.”

                      In another e-mail, a week later, the same official shared a spreadsheet to illustrate
                      the effect that different assumptions about the outcome of pending cases would
                      have on estimating a correct cut-off date. He said this about the data:

                           “Attached is a file showing the daily cap count for the 10-day period
                           beginning September 13. The table illustrates the difficulty of managing the

9
    3/31/2005 SCOPS e-mail titled "H-1B Cap Counting Issues and Complexities"
                        USCIS Approval of H-1B Petitions Exceeded 65,000 Cap in Fiscal Year 2005 
 
 

                                                        Page 11 
 
 

    cap when such a large number of cap-eligible petitions (between 23,600 and
    32,200) are pending adjudication. When the cap was reached depends on
    what is assumed about the adjudication outcome of these petitions. The FY
    2005 cap was apparently reached between September 16th and 22nd. I will
    endeavor to figure exactly which day it was reached. That will also reveal
    how (un)reliable the assumptions were. The size of the pending cap is a
    function of cap-eligible petition inflows and adjudication time. The greater
    the inflows, and the slower the adjudication process, the faster pending grows.
    The surge of petitions in September made predicting the date the cap would be
    reached that much more difficult since adjudications did not match the pace of
    incoming petitions.”

The spreadsheet illustrates that the cap will be projected to be reached on different
dates depending on assumptions made about the large body of pending cases. He
shows how three different real past outcomes - any one of which might be
reasonably considered to be a predictor of future approval rates - yield three
different cut-off dates. The three possible projections he uses – that 67, 81, or 90
percent of pending cases which will eventually be approved and found to count
against the cap – are based on specific measures of past approvals.

  FY 2005 Cap count
                Cap             Cap          Cap            Cap            Cap           Cap
 Cap count   Approved         Pending      Potential    Estimate #1    Estimate #2   Estimate #3
    as of         (A)          (B)         (A)+(B)     (A)+(.67*(B)) (A)+(.81*(B)) (A)+(.90*(B))
September 13     38,498       23,612        62,110        54,318        57,624        59,749
September 14     39,185       24,659        63,844        55,707        59,159        61,378
September 15     39,886       25,744        65,630        57,134        60,739        63,056
September 16     40,670       27,042        67,712        58,788        62,574        65,008
September 17     41,370       28,666        70,036        60,576        64,589        67,169
September 18     41,598       28,727        70,325        60,845        64,867        67,452
September 19     41,669       28,763        70,432        60,940        64,967        67,556
September 20     42,337       30,813        73,150        62,982        67,296        70,069
September 21     42,543       30,817        73,360        63,190        67,505        70,278
September 22     44,429       32,187        76,616        65,994        70,500        73,397
                  Figure 2 – CIS E-mail Shows Criticality of Assumptions


What information did CIS have at the time?

We have reviewed the many e-mails in which CIS officials reported the results of
each of the sweeps described above. In each status report the sender provided
three numbers: the number of cap petitions approved to date; an estimated number
of cap cases that would likely be approved from the work already received but not
adjudicated; and the total of those two to estimate how close CIS was to reaching
the cap.
 USCIS Approval of H-1B Petitions Exceeded 65,000 Cap in Fiscal Year 2005 
 
 

                                 Page 12 
 
 

                       In the beginning of the fiscal year sweeps were performed less frequently,
                       because there was little cause to believe the cut-off date was approaching. As the
                       sweep data showed higher and higher numbers, the frequency of the sweeps
                       increased to the point that they were executed every week. Table 1 shows the
                       results of the sweeps.

                            Table 1: Cap-eligible and Cap approved petitions for FY 2005 10
                          As of 11      Cap approvals 12 (A)       Cap-eligible pending         Potential Cap
                                                                     adjudication (B)            Total A + B
                         06-09-04               7,500                     11,500                   19,000
                         06-16-04               8,700                     13,200                   21,900
                         06-23-04              10,000                     14,400                   24,400
                         06-30-04              11,300                     15,800                   27,100
                         07-21-04              15,600                     18,700                   34,300
                         07-28-04              18,100                     18,800                   36,900
                         08-04-04              21,000                     19,900                   40,000
                         08-11-04              24,100                     19,100                   43,200
                         08-18-04              27,300                     18,600                   45,900
                         08-25-04              30,100                     19,000                   49,100
                         09-01-04              32,900                     20,100                   53,000
                         09-17-04              40,000                     27,400                   67,400
                         09-24-04              44,600                     31,600                   76,200
                         09-29-04              48,000                     32,700                   80,700
                         10-01-04              49,900                     33,000                   83,200
                         10-06-04              52,600                     33,300                   85,900
                         10-14-04              56,700                     29,800                   86,500
                         10-21-04             50,700 13                   26,800                   77,500
                         10-28-04              53,300                     24,100                   77,400
                         11-04-04              55,200                     22,200                   77,400
                         12-02-04              60,800                     16,000                   76,800
                         12-09-04              62,000                     14,700                   76,700
                         01-07-05              64,600                     11,600                   76,000
                         01-20-05              66,800                      8,900                   75,700
                         01-27-05              68,000                      7,400                   75,400
                         02-03-05              69,000                      6,100                   75,100

                       The second column indicates the number of cap cases that have been approved as
                       of the date of the data sweep. The third column is the calculated estimate of the
                       number of approvable cap cases that will eventually come out of the not-yet
                       adjudicated cases then pending at the service centers. The fourth column
                       indicates the projected number of cap cases that will be approved once the current
                       pending work is eventually adjudicated.



10
   Source: CIS.
11
   Refers to date extract file was created. 
 
 

12
   The cutoff date for cap receipts was February 17, 2004. 
 
 

13
   Adjusted for 8,700 individuals rolled back to FY 2004. 
 
 

                         USCIS Approval of H-1B Petitions Exceeded 65,000 Cap in Fiscal Year 2005 

                                                         Page 13 

How reliable are CIS estimates?

The bottom portion of the fourth column of Table 1 provides a clear illustration of
how difficult it is to estimate the outcome of cases not yet adjudicated, pending an
RFE, or on appeal. The data sweep of October 14 showed that CIS was likely to
approve 86,500 cap cases. After the receipt of additional cases ceased,
adjudicators worked through the backlog, evidence previously requested was
received, and appeals were decided. In the weeks that followed, the number of
estimated total cases dropped every week but one. The previous estimates about
the outcome of these cases proved to be quite inaccurate. By January 7, almost
three months after the projected 86,500 number had been set, CIS had not
achieved 65,000 approvals. In the final analysis, as we now know, the total of
approved cap cases reached just slightly over 72,000.

FY 2005 was not the first time that the cap was exceeded. The cap was also
surpassed in FYs 1998, 1999, and 2000:

    • 	 In FY 1998, INS approved roughly 19,000 more petitions than the 65,000
        allowed. Because the cap was met late in the fiscal year, the excess
        petitions were counted against the subsequent fiscal year ceiling.
    • 	 In FY 1999, the cap was raised to 115,000 but was again exceeded partly
        because of the rolled-over petitions from FY 1998. After accepting too
        many petitions over two years in a row, INS contracted for a review of the
        cap counting process by the consulting firm KPMG.
    • 	 In FY 2000, the 115,000 cap was met, and the remainder was counted
        toward the next fiscal year.

The cap was raised to 195,000 for FYs 2001, 2002 and 2003. It was not
exceeded.

In FY 2004, the cap reverted to 65,000. Receipt of petitions was cut-off on
February 17, 2004 in anticipation of hitting the cap. Once all the FY 2004
petitions were processed, it was determined that approximately 63,000 cap cases
were approved - 2,000 fewer than the statutory limit.

In October 2004, once it was clear that the FY 2005 cap had been exceeded, 2,000
approved cases received between April 1 and September 30, 2004 were "rolled
back" and deemed to count towards the FY 2004 cap.

Table 2 shows the cap, the number of cap cases actually approved and the date
processing of further cases was cut-off from FY 1998 through FY 2005.




 USCIS Approval of H-1B Petitions Exceeded 65,000 Cap in Fiscal Year 2005 
 
 

                                 Page 14 
 
 

                                      Table 2: Cap, Cap Approvals and the Cut-Off Date
                               FY                  Cap          Cap Approvals        Cutoff Date
                              1998                65,000            84,000*             None
                              1999               115,000            137,000        April 16, 1999
                              2000               115,000           115,000**       March 21, 2000
                              2001               195,000            164,000             None
                              2002               195,000             79,000             None
                              2003               195,000             78,000             None
                              2004                65,000           65,000***      February 17, 2004
                              2005                65,000             72,000        October 1, 2004

                      *     19,000 were rolled over to FY 1999. 
 
 

                      ** Some excess petitions were counted towards the FY 2001 cap. 
 
 

                      *** 63,000 cases were approved of those received before the February 17, 2004 
 
 

                      cut-off. Later, 2,000 cases received between April 1 and September 30, submitted 
 
 

                      for FY 2005, were rolled back and allocated against FY 2004. 
 
 


     An unexpected influx of petitions swamped the cap counting process
                      The CIS Press Office provides the public with periodic updates on changes to
                      immigration law, procedures, deadlines and various immigration statistics.
                      Through such announcements, companies are informed when CIS service centers
                      will stop accepting new H-1B cap petitions.

                      On September 2, 2004, a press release announced that, as of August 18, 2004, CIS
                      had received 45,900 H-1B petitions that would count against the congressionally-
                      mandated cap of 65,000 for fiscal year 2005. The rate petitions arrived at CIS
                      mailrooms accelerated markedly immediately after the press release, as is shown
                      in Figure 3 below 14.




14
   Although H-1B eligibility differs from that for an L-1 intra-company transferee, an examination of CIS data we
performed indicated that 1,975 L-1 beneficiaries had H-1B cases pending in FY 2005, too. Beneficiaries soliciting
multiple petitions may have increased the H-1B workload.
                       USCIS Approval of H-1B Petitions Exceeded 65,000 Cap in Fiscal Year 2005 

                                                       Page 15 

                                                                 Receipts for Initial H-1B Status

                       10,000                                                                                             Septem ber 20

                         9,000                                                                        Septem ber 13
Number of ReceiptsX

                         8,000
                         7,000
                                                                                                                            Septem ber 27
                         6,000                                                                       Septem ber 6
                                                                                                     August 30                              Weekly receipts
                         5,000
                                                                                                   August 23
                         4,000
                                                                                                                      August 16
                         3,000                                      June 7

                         2,000                                                July 5

                         1,000              April 1
                              0
                                                                     May 24




                                                                               June 21




                                                                                         July 19




                                                                                                                             September 13
                                  April 1




                                                      April 26




                                                                                                          August 16
                                                                  Week beginning in 2004


             Figure 3 – Number of Petitions Received at Service Centers Each Week
             (Source: CIS)

             One senior manager we interviewed stated that CIS was surprised by this pattern.
             Much publicity had surrounded the H-1B cap in the press, and there had been
             considerable debate on Capitol Hill about the cap levels that best served U.S.
             economic interests. He said CIS expected a rush of H-1B petitions in April and
             May. Not only did that not occur, but as the summer season continued there was
             only a slight rise in the rate at which petitions arrived at service centers. As late
             as mid-August, he continued, it appeared that the cap might not be met until well
             into the following calendar year. While the sudden rise in the last week of August
             and the first week in September can now be viewed as the precursor of a massive
             surge, it was not recognized as such at the time.

             On September 17, 2004, the report on the cap count from the CIS service centers
             projected enough adjudicated and pending petitions to justify a halting of the new
             petitions.

             FY 2005 is unique in one respect - in previous years the cap was reached late in
             the fiscal year. Once April 1 arrives, six months before the October 1 start of a
             new fiscal year, the petition window opens for the coming fiscal year. Petitions
                      USCIS Approval of H-1B Petitions Exceeded 65,000 Cap in Fiscal Year 2005 
 
 

                                                      Page 16 
 
 

           received after April 1 can be allocated in two ways: to the current fiscal year if the
           cap has not yet been reached, or to the following fiscal year if it has. Cases over
           the cap in FY 2005 could not be rolled over to the next fiscal year because the cap
           was reached too early – six months before the FY 2006 processing began on April
           1, 2005.

Ceasing acceptance of new petitions took too long
           CIS could have closed the window sooner than it did if procedures to do so had
           been approved in advance. In the event, as soon as it became apparent that receipt
           of petitions had to be suspended, it was necessary to draft a notice to that effect
           for the Federal Register, and a press release, and circulate both for clearance and
           approval. This process was delayed by the need to manage two other related
           issues at the same time: student visa extensions and Chile-Singapore Free Trade
           Agreement visa procedures.

           We have analyzed most of the e-mail discussions that took place within CIS as the
           number of approved H-1B petitions approached, and then exceeded, 65,000. This
           analysis shows that CIS managers were poorly served by the inability of their data
           systems to produce real-time numbers, by their own incorrect projections, and by
           perceived lack of clarity in the Chile-Singapore statutory language.

           On August 25, 2004, demonstrating all three of these issues at once but working
           with week-old data, one senior manager wrote to senior colleagues that: "it is not
           inconceivable that we could exhaust all FY 2005 numbers before fiscal year 05
           officially begins. It is more likely that we will need to keep filings open until
           November 14. . . . The cap for FY 2005 is somewhat complicated. . . . Those
           restrictions for the use of the unused [Chile-Singapore] numbers include a
           requirement that the numbers must be used within 45 days of the beginning of the
           fiscal year (November 14, 2004), and a requirement that the numbers can only be
           used for petitions filed in the fiscal year that they are used (FY 2005 in this case).
           I have not sought legal review of that language to ascertain whether there is any
           flexibility on those provisions, but am including [Office of Chief Counsel] in this
           transmission to seek … review and advice".

           On August 27, 2004, the Office of Immigration Statistics issued a routine cap
           count e-mail reporting that the sweep two days earlier indicated 30,100 cases
           approved and 19,000 pending, for a potential total of 49,100. It indicated that the
           analyst would be out of the office for the next two weeks, too.

           The first e-mail that circulated a draft Federal Register Notice concerning a
           cessation of acceptance of H-1B petitions was dated September 10, 2004.

           On September 15, 2004, the OIS analyst circulated the results of the September
           1st sweep. This data was two weeks old. It showed approvals at 32,900 and
            USCIS Approval of H-1B Petitions Exceeded 65,000 Cap in Fiscal Year 2005 

                                            Page 17 

pending cases at 21,100 for a total of 53,000. Also on September 15, 2004, it was
reported that the September 8th sweep attempt had failed due to a large amount of
corrupted data.

On September 20, 2004, the OIS analyst circulated the results of the September
17th sweep indicating that the total had exceeded the cap with 40,000 petitions
approved and 27,400 pending. He informed the recipients that there had been a
dramatic increase in H-1B receipts in the first two weeks of September.

Again on September 20, 2004, senior CIS managers met and decided that
adjustments to the count should be made to compensate for 2,000 FY 2004
numbers that had been unused as a result of closing the FY 2004 window a little
too soon in February 2004. Also, an adjustment would be made to reuse the 5,700
Chile/Singapore numbers that had been set aside but not used. These two
decisions effectively "rolled" 7,700 FY 2005 cases forward into FY 2004.

On September 27, 2004, the OIS analyst circulated the results of the September
24th sweep. It showed approvals at 44,600 and pending cases at 31,600 for a total
of 76,200.

Another e-mail concerning the draft Federal Register Notice was sent on
September 28, 2004. The author noted that in light of the latest approval numbers
"…we probably need to get clearance on the H-1B cap notice for FY 2005 in
short order. Please review ASAP and fax signed concurrence sheets to my
attention." The draft is nine pages in length and discusses, in addition to the
congressional cap, two related issues: the extension of status of students and
exchange visitors for whom H-1B petitions had been filed, and the recycling of
the unused Chile/Singapore numbers previously set aside.

On September 29, 2004, a senior manager in Service Center Operations sent an e-
mail suggesting that CIS cease accepting H-1B petitions subject to the cap on
October 1, 2004. The e-mail discussed the latest view of the proper treatment of
pending cap cases. CIS knew after each sweep how many H-1B cap cases it had
already approved, and it knew how many petitions had been received but not yet
finally adjudicated. The number of pending cases that would eventually be
approved was estimated in order to assess the total number of cap cases that
would be approved. In late September the analyst sought to improve his statistical
model. He knew that prior year estimations had not been very precise, so he
added new variables to the mix. Based on this finer analysis, he advised CIS
managers that the September 24th sweep data should be reinterpreted. Instead of
assuming that 31,600 of the pending cases would be approved, his data now
suggested that 21,800 would be. If correct, this in turn meant that CIS was likely
to approve 66,400 cap cases. When the FY 2004 shortfall and Chile/Singapore
adjustments were made the 66,400 number dropped to 57,900, the manager
reported.
 USCIS Approval of H-1B Petitions Exceeded 65,000 Cap in Fiscal Year 2005 
 
 

                                 Page 18 
 
 

                        Also on September 29, 2004, a CIS manager suggested that a draft Federal
                        Register Notice could not possibly be approved in time, and that CIS would need
                        to issue a press release about cutting off further applications on October 1st.
                        According to his e-mail, one of the reasons the Federal Register Notice had not
                        yet been approved was that "issues related to the Chile and Singapore set-asides
                        are still being worked out…."

                        It then required two more days to obtain all the required CIS, DHS, and other
                        agency clearances before the press release was final. It was issued on October 1,
                        2004. 15

      Recent CIS initiatives are intended to prevent a recurrence
                        CIS is concerned that it had neither a technology nor a methodology to adhere to
                        the legislated cap. Managers told us that its FY 2005 failure has been the subject
                        of several discussions with officials at the highest level in DHS. It has initiated
                        two new measures to prevent a recurrence: bi-specialization and last-day
                        randomization.

                        Bi-specialization

                        As we described earlier in this report, because H-1B petitions are processed at all
                        four service centers, any effort to collect data requires sweeping four computer
                        systems. Any procedural changes need to be implemented among four
                        workforces, and new policy decisions need to be discussed with four
                        managements. CIS has begun to centralize specific processes at specific service
                        centers to reduce these difficulties. In October 2004, a discussion memorandum
                        was prepared in the CIS Office of Service Center Operations that analyzed the
                        issue and made recommendations for reorganization. The paper acknowledged
                        that previous efforts to "specialize" production had run into resistance due to the
                        concerns of "managers and supervisors that some work is more attractive than
                        other work due to the grade appropriateness and/or the high profile nature of some
                        cases…."

                        The proponents of increased specialization have made efforts to avoid any
                        negative effect on employee numbers and grade levels. Among the foreseen
                        benefits of increased specialization are: increased quality and consistency of
                        adjudications, improved fraud detection, enhanced customer service, budgetary
                        savings, and improved production management and resource allocation. In the
                        discussion of production management improvements, the memorandum
                        specifically states that bi-specialization will "facilitate management of
                        congressionally mandated numerical caps".

15
     A copy can be found at http://uscis.gov/graphics/publicaffairs/factsheets/H1B_05fnl100104.pdf.
                         USCIS Approval of H-1B Petitions Exceeded 65,000 Cap in Fiscal Year 2005 
 
 

                                                         Page 19 
 
 

                    Bi-specialization will be introduced over a two-year period. Each specific CIS
                    product, such as temporary worker visa petitions, will be processed at only two
                    service centers. As a result, each of the centers will have half as many types of
                    products to produce. When we asked why H-1B processing would not be
                    centralized at just one service center, further improving cap management, CIS
                    managers stated that the existing CIS computer systems are neither robust nor
                    redundant, so it would be unwise to give sole responsibility for any product to any
                    one service center for fear that a computer outage at that center would shut down
                    an entire product line.

                    Last-day Randomization

                    CIS describes this new procedure in a May 4, 2005, press release:

                         For FY 2006 and subsequent fiscal years . . . USCIS will accept and
                         adjudicate properly filed H-1B petitions on a first in, first out basis using
                         projections that indicate the number of petitions necessary to reach the
                         congressionally mandated cap. USCIS will closely monitor that number and
                         notify the public of the “final receipt date” (the date USCIS receives the
                         necessary number of petitions to meet the cap). For petitions received on the
                         “final receipt date,” USCIS will apply a computer-generated random selection
                         process. This process will randomly select the exact number of petitions from
                         the day’s receipts needed to meet the congressionally mandated cap. USCIS
                         will reject all petitions received on the “final receipt date” not selected
                         through the random process. In the interest of fairness and orderly procedures,
                         if any cap is reached on the first day on which filings can be made, the
                         random selection will include the filings received on that first day AND the
                         following day. 16

                    Last-day randomization may not resolve the counting problem. It has the
                    appearance of transparency and fairness. But nothing we observed of the petition
                    approval and counting process gives us confidence that CIS can know in advance
                    the date on which it is likely to approve its 65,000th cap case. Indeed, for all the
                    reasons described in this report, it is unclear even now on exactly which date CIS
                    approved FY 2005 cap case number 65,000.


     Conclusions and Recommendations
                    The number of persons granted immigrant status each year is strictly controlled,
                    whether they are issued visas abroad by DOS, or adjust status in the United States

16
  Press Release, "USCIS Implements H-1B Visa Reform Act Of 2004; Announces New H-1B Procedures For FY 2005
and FY 2006," dated May 4, 2005. Observed at : http://uscis.gov/graphics/publicaffairs/newsrels/H-1B_050504.pdf.
                      USCIS Approval of H-1B Petitions Exceeded 65,000 Cap in Fiscal Year 2005 
 
 

                                                      Page 20 
 
 

with CIS. In a process very similar to the one described here for H-1B temporary
workers, would-be immigrants obtain immigrant status only after their immigrant
petitions are approved. Unlike temporary worker petitions, the receipt and
processing of immigrant petitions never stops. Petitioners file whenever they
choose. Beneficiaries, once approved, go on a virtual "waiting list" and are
granted immigrant status only as immigrant "numbers" become available. CIS
and DOS coordinate so that the appropriate quantities of immigrant numbers go
concurrently to the CIS adjustment process and the DOS visa process.

No more than the statutorily authorized number of beneficiaries should be
permitted to achieve H-1B status. Excess beneficiaries should be placed on a
waiting list in the order in which they filed and granted status only as numbers
become available due to revocations of petitions, correction of counting errors,
and visa denials.

We recommend that CIS:

Recommendation 1: Control H-1B status in a manner analogous to that used
to control immigrant status. H-1B visas (for overseas beneficiaries) and
status (for domestic beneficiaries) should be precisely counted and given to
beneficiaries taken in turn from a waiting list of approved petitions.

CIS needs to control the number of certain types of beneficiaries granted
temporary worker status. The CLAIMS system does not facilitate this process. A
complete examination of the strengths and weaknesses of the CLAIMS system is
outside the scope of this report. To simplify the counting of H-1B petitions we
recommend that all H-1B petitions be processed at one service center. Bi
specialization has not been implemented yet and therefore cannot fairly be
criticized, but it might prove to be a major change that ushers in only minor
improvement. It was described to us by a senior CIS manager as a prudent
compromise between the benefit of centralization and the risk of computer failure.
We were told that if all H-1B petitions were processed at one location, and that
LAN went down, then the H-1B process would come to a halt.

In our opinion the processing of H-1B petitions is not inherently time sensitive. A
LAN crash at any one of the four service centers would surely be very disruptive,
but the halt would likely be brief and the outcome fair to all petitioners.

We recommend that CIS:

Recommendation 2: Centralize processing of H-1B petitions at one service
center.




 USCIS Approval of H-1B Petitions Exceeded 65,000 Cap in Fiscal Year 2005 
 
 

                                 Page 21 
 
 

Management Comments and OIG Analysis
           We issued our draft report on August 18, 2005, and met with CIS officials on
           August 30, 2005, to discuss the report. We received CIS' formal written
           comments, attached at Appendix C, on September 23, 2005. Below is a summary
           of CIS’ responses to the report’s recommendations and our analysis of their
           comments.

           Recommendation 1: Control H-1B status in a manner analogous to that used
           to control immigrant status. H-1B visas (for overseas beneficiaries) and
           status (for domestic beneficiaries) should be precisely counted and given to
           beneficiaries taken in turn from a waiting list of approved petitions.

           CIS states in their reply that our recommendation could be interpreted in either of
           two ways, and discusses the difficulties of taking either course. CIS also points
           out that visa processing times at US embassies vary from one country to another.
           CIS does not know, at any moment, how many H-1B cap case visas have been
           issued abroad. Neither does it know, under current procedures, when someone
           issued such a visa does not use it to enter the United States. CIS points out that
           Section 214(g)(3) requires H-1B status be granted in the order petitions are filed,
           and raises the real possibility that parties that consider themselves aggrieved by
           new cap counting procedures might sue CIS. CIS also raises the possibility that
           premium process could be construed, in the case of a finite resource such as
           capped H-1B visas, as "selling" visas. CIS expresses concern for the would-be
           employers of H-1B beneficiaries if it were to approve petitions slowly to insure
           no over-issuance. CIS also comments that implementing our recommendation
           would mean "…even if the petitioner has filed an approvable petition while H-1B
           numbers are still available, an alien may ultimately be … barred from receiving
           classification … because the cap has been reached before the petition can be
           adjudicated." For our part, we continue to believe that Congress intended that
           outcome when it imposed a specific numerical limit: otherwise eligible
           beneficiaries would be denied once the cap is reached. None of CIS' comments
           resolve the fundamental problem: a law is broken when beneficiary number
           65,001 obtains H-1B status.

           We do not wish to be overly prescriptive, neither do we minimize the challenge of
           actually implementing what the law requires.

           We continue to believe that CIS should serially number petitions as received,
           adjudicate as many as it believes it needs to adjudicate to end up with at least
           65,000 admissions and adjustments, and send approval notices to the first 65,000
           beneficiaries. CIS might consider giving beneficiaries 60 days to adjust, arrive, or
           apply for a visa, after which time their number could be recycled to the next
           person on the list. While CIS found reasons to object to our suggestions, its

            USCIS Approval of H-1B Petitions Exceeded 65,000 Cap in Fiscal Year 2005 

                                            Page 22 

response was short on specifics as to its own ideas on how to improve the overly
complicated and unreliable system it has been using.

Within 90 days, CIS should respond with a further proposal for improving the H
1B visa program cap counting.

Recommendation 1 – Unresolved.


Recommendation 2: Centralize processing of H-1B petitions at one service
center.

CIS states that we adequately described the technology it uses to monitor and
manage progress toward reaching the cap, and agrees with our conclusion that the
technology was not effective. CIS also agrees that attempting to manage the H
1B cap counting process at four service centers was not effective. It mentions that
H-1B data is now being collected daily from service centers to a central database,
and that this data is immediately available to the Washington, DC managers who
control the cap. CIS disagrees with our recommendation that H-1B cap cases be
processed at only one service center, and prefers two, citing the risks associated
with a single point of failure. It states that CIS plans to move H-1B processing
from four service centers to two in Fiscal Year 2007.

The improved data collection and dissemination described may improve
managers' ability to fine-tune the cap counting system. While we believe the
efficiencies of a single center outweigh the risk of failure that CIS asserts requires
two, CIS has discretion in the matter. We ask CIS to evaluate the benefit that
might be gained from routing H-1B cap case petitions to one service center, and
cap-exempt petitions to the second service center. CIS should provide OIG
within 90 days a detailed description of the operational plan to consolidate H-1B
petitions at the two service centers.

Recommendation 2 – Resolved – open.




 USCIS Approval of H-1B Petitions Exceeded 65,000 Cap in Fiscal Year 2005 
 
 

                                 Page 23 
 
 

                Appendix A
                Purpose, Scope and Methodology




Purpose, Scope, and Methodology
            The objectives of this review were to assess how CIS exceeded a congressionally-
            mandated cap on the number of H-1B petitions approvals in fiscal year 2005, as
            well as the procedures and decisions that may have contributed to the overage.
            To meet our objective we reviewed records, memoranda, communications
            including e-mails, and rules and procedures pertinent to the administration of the
            H-1B program.

            We interviewed CIS officials from the Offices of Domestic Operations, Service
            Center Operations, Fraud Detection and National Security, Chief Counsel.
            Additionally, we interviewed at the DHS Management Directorate’s Office of
            Immigration Statistics. We observed H-1B petition processing at the California
            Service Center in Laguna Niguel, California and the Department of State’s
            Kentucky Consular Center in Williamsburg, Kentucky. We conducted fieldwork
            from April 2005 to June 2005.

            This review was conducted under the authority of the Inspector General Act of
            1978, as amended, and according to the Quality Standards for Inspections issued by
            the President’s Council on Integrity and Efficiency.




             USCIS Approval of H-1B Petitions Exceeded 65,000 Cap in Fiscal Year 2005 
 
 

                                             Page 24 
 
 

                       Appendix B
                       Immigration and Nationality Act



Section 214(g) of the Immigration and Nationality Act, as amended

(g)(1) The total number of aliens who may be issued visas or otherwise provided nonimmigrant
status during any fiscal year (beginning with fiscal year 1992)-

   (A) under section 101(a)(15)(H)(i)(b), may not exceed--

       (i) 65,000 in each fiscal year before fiscal year 1999;

       (ii) 115,000 in fiscal year 1999;

       (iii) 115,000 in fiscal year 2000;

       (iv) 195,000 in fiscal year 2001;

       (v) 195,000 in fiscal year 2002;

       (vi) 195,000 in fiscal year 2003 and

       (vii) 65,000 in each succeeding fiscal year; or

   (B) under section 101(a)(15)(H)(ii)(b) may not exceed 66,000.

(2) The numerical limitations of paragraph (1) shall only apply to principal aliens and not to the
spouses or children of such aliens.

(3) Aliens who are subject to the numerical limitations of paragraph (1) shall be issued visas (or
otherwise provided nonimmigrant status) in the order in which petitions are filed for such visas or
status. If an alien who was issued a visa or otherwise provided nonimmigrant status and counted
against the numerical limitations of paragraph (1) is found to have been issued such visa or
otherwise provided such status by fraud or willfully misrepresenting a material fact and such visa or
nonimmigrant status is revoked, then one number shall be restored to the total number of aliens who
may be issued visas or otherwise provided such status under the numerical limitations of paragraph
(1) in the fiscal year in which the petition is revoked, regardless of the fiscal year in which the
petition was approved.

(4) In the case of a nonimmigrant described in section 101(a)(15)(H)(i)(b), the period of authorized
admission as such a nonimmigrant may not exceed 6 years.

(5) The numerical limitations contained in paragraph (1)(A) shall not apply to any nonimmigrant
alien issued a visa or otherwise provided status under section 101(a)(15)(H)(i)(b) who --



                    USCIS Approval of H-1B Petitions Exceeded 65,000 Cap in Fiscal Year 2005 
 
 

                                                    Page 25 
 
 

                           Appendix B
                           Immigration and Nationality Act


      (A) is employed (or has received an offer of employment) at an institution of higher education
      (as defined in section 101(a) of the Higher Education Act of 1965 (20 U.S.C. 1001(a))), or a
      related or affiliated nonprofit entity;

      (B) is employed (or has received an offer of employment) at a nonprofit research organization or
      a governmental research organization; or

      (C) has earned a master's or higher degree from a United States institution of higher education
      (as defined in section 101(a) of the Higher Education Act of 1965 (20 U.S.C. 1001(a)), until the
      number of aliens who are exempted from such numerical limitation during such year exceeds
      20,000.

(6) Any alien who ceases to be employed by an employer described in paragraph (5)(A)shall, if
employed as a nonimmigrant alien described in section 101(a)(15)(H)(i)(b), who has not previously
been counted toward the numerical limitations contained in paragraph(1)(A), be counted toward
those limitations the first time the alien is employed by an employer other than one described in
paragraph (5).

(7) Any alien who has already been counted within the 6 years prior to the approval of a petition
described in subsection (c), toward the numerical limitations of paragraph (1)(A)shall not again be
counted toward those limitations unless the alien would be eligible for a full 6 years of authorized
admission at the time the petition is filed. Where multiple petitions are approved for 1 alien, that
alien shall be counted only once.

(8)
      (A) The agreements referred to in section 101(a)(15)(H)(i)(b1) are—

            (i) The United States-Chile Free Trade Agreement; and

            (ii) The United States-Singapore Free Trade Agreement.

      (B)
            (i) The Secretary of Homeland Security shall establish annual numerical limitations on
            approvals of initial applications by aliens for admission under section 101(a)(15)(H)(i)(b1).

            (ii) The annual numerical limitations described in clause (i) shall not exceed—

               (I) 1,400 for nationals of Chile (as defined in article 14.9 of the United States-Chile Free
               Trade Agreement) for any fiscal year; and

               (II) 5,400 for nationals of Singapore (as defined in Annex 1A of the United States-
               Singapore Free Trade Agreement) for any fiscal year.

            (iii) The annual numerical limitations described in clause (i) shall only apply to principal
            aliens and not to the spouses or children of such aliens.
                        USCIS Approval of H-1B Petitions Exceeded 65,000 Cap in Fiscal Year 2005 
 
 

                                                        Page 26 
 
 

                   Appendix B
                   Immigration and Nationality Act




   (iv) The annual numerical limitation described in paragraph (1)(A) is reduced by the amount
   of the annual numerical limitations established under clause (i). However, if a numerical
   limitation established under clause (i) has not been exhausted at the end of a given fiscal
   year, the Secretary of Homeland Security shall adjust upwards the numerical limitation in
   paragraph (1)(A) for that fiscal year by the amount remaining in the numerical limitation
   under clause (i). Visas under section 101(a)(15)(H)(i)(b) may be issued pursuant to such
   adjustment within the first 45 days of the next fiscal year to aliens who had applied for such
   visas during the fiscal year for which the adjustment was made.

(C) The period of authorized admission as a nonimmigrant under section 101(a)(15)(H)(i)(b1)
shall be 1 year, and may be extended, but only in 1-year increments. After every second
extension, the next following extension shall not be granted unless the Secretary of Labor had
determined and certified to the Secretary of Homeland Security and the Secretary of State that
the intending employer has filed with the Secretary of Labor an attestation under section
212(t)(1) for the purpose of permitting the nonimmigrant to obtain such extension.

(D) The numerical limitation described in paragraph (1)(A) for a fiscal year shall be reduced by
one for each alien granted an extension under subparagraph (C) during such year who has
obtained 5 or more consecutive prior extensions.




                USCIS Approval of H-1B Petitions Exceeded 65,000 Cap in Fiscal Year 2005 
 
 

                                                Page 27 
 
 

   Appendix C
   Management Response to Draft Report




USCIS Approval of H-1B Petitions Exceeded 65,000 Cap in Fiscal Year 2005 
 
 

                                Page 28 
 
 

   Appendix C
   Management Response to Draft Report




USCIS Approval of H-1B Petitions Exceeded 65,000 Cap in Fiscal Year 2005 
 
 

                                Page 29 
 
 

   Appendix C
   Management Response to Draft Report




USCIS Approval of H-1B Petitions Exceeded 65,000 Cap in Fiscal Year 2005 
 
 

                                Page 30 
 
 

   Appendix C
   Management Response to Draft Report




USCIS Approval of H-1B Petitions Exceeded 65,000 Cap in Fiscal Year 2005 
 
 

                                Page 31 
 
 

   Appendix C
   Management Response to Draft Report




USCIS Approval of H-1B Petitions Exceeded 65,000 Cap in Fiscal Year 2005 
 
 

                                Page 32 
 
 

   Appendix D
   Major Contributors to This Report




   Randall Bibby, Chief Inspector, Department of Homeland Security, Office of
   Inspections and Special Reviews

   Douglas Ellice, Chief Inspector, Department of Homeland Security, Office of
   Inspections and Special Reviews

   M. Faizul Islam, Ph.D., Senior Inspector, Department of Homeland Security,
   Office of Inspections and Special Reviews

   W. Preston Jacobs, Inspector, Department of Homeland Security, Office of
   Inspections and Special Reviews




USCIS Approval of H-1B Petitions Exceeded 65,000 Cap in Fiscal Year 2005 
 
 

                                Page 33 
 
 

   Appendix E
   Report Distribution




   Department of Homeland Security

   Secretary
   Deputy Secretary
   Chief of Staff
   General Counsel
   Executive Secretariat
   Citizenship and Immigration Services, Acting Deputy Director
   Citizenship and Immigration Services, Audit Liaison
   Under Secretary, Management
   Director, Office of Immigration Statistics, Under Secretary for Management
   Assistant Secretary, Public Affairs
   Chief of Security
   DHS Liaison


   Office of Management and Budget

   Chief, Homeland Security Branch
   DHS OIG Budget Examiner

   Congress

   Appropriate Congressional Oversight and Appropriations Committees




USCIS Approval of H-1B Petitions Exceeded 65,000 Cap in Fiscal Year 2005 
 
 

                                Page 34 
 
 

Additional Information and Copies

To obtain additional copies of this report, call the Office of Inspector General
(OIG) at (202) 254-4100, fax your request to (202) 254-4285, or visit the OIG
web site at www.dhs.gov/oig.

OIG Hotline

To report alleged fraud, waste, abuse or mismanagement, or any other kind
of criminal or noncriminal misconduct relative to department programs or
operations, call the OIG Hotline at 1-800-323-8603; write to Department of
Homeland Security, Washington, DC 20528, Attn: Office of Inspector
General, Investigations Division – Hotline. The OIG seeks to protect the
identity of each writer and caller.
